<html>
<title> - HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 1, 2002

                               __________

                           Serial No. 107-210

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

87-017              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Depeuty Staff Director
                        Justin Paulhamus, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 1, 2002.....................................     1
Statement of:
    Berkin, Jeffrey J., Assistant Special Agent in Charge, 
      Milwaukee Division, Federal Bureau of Investigation........    23
    Buikema, Edward G., Regional Director, Federal Emergency 
      Management Agency..........................................    34
    Chapin, John D., Administrator, Wisconsin Department of 
      Public Health..............................................   106
    Clarke, David, sheriff, Milwaukee County, WI.................     5
    Devries, Mark, commander, Marine Safety Office, Milwaukee, WI     7
    Foldy, Seth, M.D., Commissioner of Health, city of Milwaukee, 
      WI.........................................................    86
    Gleason, Edward, administrator, Wisconsin Emergency 
      Management and Homeland Security advisor to Governor.......     8
    Hartley, Captain Scott, Commanding Officer, National Strike 
      Force Coordinating Center, U.S. Coast Guard................    46
    Hecker, Jayetta, Director, Physical Infrastructure, General 
      Accounting Office..........................................    61
    Norquist, John O., mayor, city of Milwaukee, WI; and Larry 
      Gardner, chief, Milwaukee Fire Department..................     2
    Schifalacqua, Mariano, commissioner of public works, 
      Department of Public Works, city of Milwaukee, WI..........   101
Letters, statements, etc., submitted for the record by:
    Berkin, Jeffrey J., Assistant Special Agent in Charge, 
      Milwaukee Division, Federal Bureau of Investigation, 
      prepared statement of......................................    25
    Buikema, Edward G., Regional Director, Federal Emergency 
      Management Agency, prepared statement of...................    37
    Foldy, Seth, M.D., Commissioner of Health, city of Milwaukee, 
      WI, prepared statement of..................................    89
    Gleason, Edward, administrator, Wisconsin Emergency 
      Management and Homeland Security advisor to Governor, 
      prepared statement of......................................    11
    Hartley, Captain Scott, Commanding Officer, National Strike 
      Force Coordinating Center, U.S. Coast Guard, prepared 
      statement of...............................................    48
    Hecker, Jayetta, Director, Physical Infrastructure, General 
      Accounting Office, prepared statement of...................    64
    Schifalacqua, Mariano, commissioner of public works, 
      Department of Public Works, city of Milwaukee, WI, prepared 
      statement of...............................................   103


  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK

                              ----------                              


                          MONDAY, JULY 1, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                     Milwaukee, WI.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
the Milwaukee Common Council Chambers, Milwaukee City Hall, 
Milwaukee, WI, Hon. Steve Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Horn, Kleczka and Petri.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; Justin Paulhamus, 
clerk; Chris Barkley, staff assistant; Michael Sazonov, 
Sterling Bentley, Joe DiSilvio and Yigal Kerszenbaum, interns.
    Mr. Horn. It is a great pleasure to be in the State of 
Wisconsin.
    I am just going to give you some background before the 
Mayor will give the major presentation.
    This is the Subcommittee on Government Efficiency, 
Financial Management and Intergovernmental Relations and we are 
in order and we are delighted to have two fine Members of 
Congress in Wisconsin.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and in their 
willingness to protect that freedom. The diabolical nature of 
those attacks and then the deadly release of anthrax sent a 
loud and clear message to all Americans. We must be prepared 
for the unexpected. We must have the mechanisms in place to 
protect this Nation and its people from further attempts to 
cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there remain 
serious doubts as to whether the Nation is equipped to handle a 
massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of Wisconsin and the good people of Milwaukee to 
know that they can rely on these systems, should the need 
arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the front lines. We want to 
hear about their capabilities and their challenges and we want 
to know what the Federal Government can do to help. We welcome 
all of our witnesses and we look forward to their testimony.
    Since we are an investigative committee from the full 
Committee on Government Reform, we do swear in all our 
witnesses, so if all the witnesses that are going to be here 
and any assistance of yours, the Clerk will put them in the 
hearing record. So if you will stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all the witnesses 
affirmed the oath, and we will begin with the Mayor of 
Milwaukee, The Honorable John Norquist. We are honored that 
with all the things going on in Milwaukee, that he would spend 
some time with this subcommittee. Thank you, Mayor.

 STATEMENT OF JOHN O. NORQUIST, MAYOR, CITY OF MILWAUKEE, WI; 
      AND LARRY GARDNER, CHIEF, MILWAUKEE FIRE DEPARTMENT

    Mayor Norquist. Thank you, Mr. Chairman. My mic seems to 
work pretty well. [Laughter.]
    I want to welcome you to Milwaukee, along with Congressman 
Petri, who comes here quite often--it is on his way home--and 
of course our own Congressman, who we are very proud of, Jerry 
Kleczka.
    In the short time that I have, I wanted to affirm the 
importance of local responders. We all saw dramatically on the 
horrible day on September 11th, how New York City firefighters, 
police officials, health officials and other municipal 
officials were the key element in responding to the immediate 
crisis.
    A smaller, but nevertheless important, effort was made by 
communities around the country--Milwaukee was no exception--
where we had firefighters, police officers, sheriff's 
department personnel and health officials responding to fears 
of anthrax contamination. We had 320 calls and 74 that we had 
to do tests for, it cost hundreds of thousands of dollars for 
various law enforcement agencies to deal with this. For the 
most part, the community and the workers involved did their 
work cheerfully--I think in every case--did it with a sense of 
determination. We trained people, our health department trained 
people. At the post office when the scare happened, it was 
terrifying, when anthrax was found in the post office in 
Indianapolis and Kansas City, we thought it was very likely it 
would come into our post office and our health department 
personnel quickly, along with our fire department, met with and 
trained employees of the Federal post office.
    We were fortunate in that in the case of our water supply, 
which water supplies were an immediate concern across the 
country when you are dealing with terrorism. We had already 
done a lot of preparation for preparing our water utility 
because of an issue here that had to do with fishermen who 
wanted public access in and around our water plant, and so 
because of that, we had already put a lot of security protocol 
in place and were well along on that. And that is an example to 
other water utilities in the country because we have moved so 
far with it.
    Our city health department pioneered something called 
ServeNet which tracks and reports communicable diseases at area 
hospitals, clinics and health departments. This is a 
communication issue and our health department has done this 
with tremendous cooperation from other parts of the health care 
network.
    These are things that do not have to cost a lot of money. 
These are procedures that can be put in place that just make 
common sense and are useful for other aspects of life other 
than just dealing with a terrorism crisis. And I would 
encourage you and your committee and Federal agencies to look 
at this ServeNet network that has been set up by our health 
department as an example for the rest of the country.
    Cooperation is important. I think that local Federal 
officials have been very cooperative, have tried to cooperate 
effectively with our fire department, health department, police 
department, sheriff's office and other agencies. But this is 
something that can always improve. FBI offices have a tendency 
to change their leadership personnel maybe more often than they 
should. That can lead to communication problems when that 
happens.
    Finally, I wanted to mention funding concerns. The last 
President was a Governor, the current President is a Governor. 
It is natural for them to place great value in State government 
and State government does have great value. But in dealing with 
these crises, the immediate responders are local and the 
Federal Government needs to make sure that there is not a 
tendency just to spread money thinly across political 
jurisdictions instead of focusing it on places that can really 
matter. There are only two top level labs in the State of 
Wisconsin. One the State runs in Madison and the other is run 
by our health department. Trying to replicate lab resources in 
small communities that can be served by those in larger 
communities is something that you really need to be careful 
about. It should not be just about making everybody feel like 
they have been treated fairly. It is more important to make 
sure that the emergency response is effective.
    And finally, on one issue that has to do with--not with us 
locally in terms of a program, but it has to do with your own 
agency. The Centers for Disease Control has a very effective 
relationship with health departments across the country, 
certainly our health department and also, for that matter, the 
State of Wisconsin's health facilities. The CDC tends to be 
eager to get information and to share it. They tend to be less 
arrogant than other agencies, maybe that is because they are so 
focused on disease. They have been humbled by the fact that 
disease can spread very quickly if there is not a good 
communication network.
    I would encourage you to consider very carefully whether it 
is a good idea to put the CDC in the new Department of Homeland 
Security, and if you ultimately think it is a good idea to put 
it in there, I would be very careful to make sure that its 
ability to communicate and share information with local health 
agencies is retained. My own view is that it would probably be 
better to leave it in the Health and Human Services Department 
and set up some kind of protocol of communication with Homeland 
Security, because the relationships that have been built up 
over the years with health departments are so valuable you do 
not want to wreck them.
    With that, I am going to now introduce our fire chief, who 
was not formally on the program, but played a key role in the 
response to September 11th and is one of the key actors in all 
this. When we have an emergency in Milwaukee, it is the fire 
department usually that is in there first and leaves at the 
very end.
    So with that, here is Chief Larry Gardner.
    Mr. Gardner. Thank you.
    I am honored to testify before the Committee on Government 
Reform, Subcommittee on Government Efficiency, Financial 
Management and Intergovernmental Relations today. My name is 
Larry Gardner and I am Chief of the Milwaukee Fire Department.
    My department provides services; emergency services that 
include fire education, suppression, emergency medical service, 
a local heavy urban rescue team and a regional hazardous 
materials team.
    First, I would like to thank the committee for its 
continued interest and support in the fight against terrorism. 
I would also like to thank you for making the resources 
available to better prepare us for the challenges of today's 
domestic and international terrorist events.
    The tragedies of the attack on the World Trade Center in 
New York and the events of Oklahoma City opened the avenues of 
opportunity for improved level of preparedness. Quoting a 1997 
letter to Mayor Norquist from the Federal Emergency Management 
Agency, ``In light of recent events and the increased access to 
the proliferation of nuclear, biological and chemical 
materials, there is a growing concern about the potential for 
terrorist incidents involving weapons of mass destruction. 
Recent Federal legislation authorize the Federal Government to 
offer State and local jurisdictions training to help the 
emergency personnel to respond to potential terrorist incidents 
involving such agencies. Initial Federal efforts will target 27 
of the Nation's largest cities and will involve a self-
assessment by each city of the current terrorist response 
capabilities and training requirements and a cooperative 
Federal, State and local approach to meeting identified 
needs.''
    Although this letter was written in 1997, the problem of 
terrorism is still here and even more punctuated today. Let me 
tell you that the city of Milwaukee has taken advantage of the 
training and equipment that was made available through the 
Nunn-Lugar-Domenici Act. Milwaukee has taken full advantage of 
implementing the MMST or MMRS system, as it is today. And as 
every day passes, we see how the rules of the game for 
preparedness change. This is why we must continue to pursue all 
the resource opportunities for continued training of our 
emergency response personnel in the event of future terrorist 
attacks. I personally believe the city of Milwaukee is far 
better prepared than it would have been if these funds had not 
been made available.
    We must continue to receive these funds at the local level 
to progressively provide for training, exercising and equipping 
cities with the latest in medical supplies and technological 
advances. It is important that these funds get to metropolitan 
communities such as Milwaukee.
    Here are some of the examples of the cooperative efforts 
Milwaukee Fire Department has been involved with since 
September 11, 2001: We have responded to the anthrax response 
and provided public training. We have provided countywide risk 
assessment and training with law enforcement, media and public 
health. We have been involved at the State level with our 
regional hazardous materials team in training regional fire 
departments in awareness procedures for terrorist activities. 
We have trained and worked with county employees regarding 
terrorism awareness training. We have worked with--and one of 
the handouts I have for you is dated May 2002--we have worked 
with the city employees involving terrorism awareness training. 
We have also worked with training our heavy urban rescue team 
for structural collapse because of the incidents that we have 
become so aware of from the city of New York. The fire, health, 
police and public works, employee relations and sheriff's 
departments have worked in cooperation to increase the level of 
awareness through the outreach training to better prepare the 
different tiers of government.
    What do we need? We need to make our local efforts as 
successful as it possibly can be. Incident command training, 
unified training, we need to continue to work on that. Planning 
to optimize communications to improve wireless accessibility. 
Additional training at all levels of government. Seamless grant 
applications and grants that go directly to the metropolitan 
communities. Enhanced decontamination capabilities. In our 
collective efforts to combat terrorism, we have expanded many 
local resources as well as the Federal financial help. We need 
to continue to refine our efforts and get the money to the 
local levels.
    With that, I thank you and I am available for any 
questions.
    Mr. Horn. Thank you. We are going to go through a few in 
this area of law enforcement issues and then our colleagues 
here can ask questions on that.
    So we will now have David Clarke, the Sheriff of Milwaukee 
County. Thank you for coming.

    STATEMENT OF DAVID CLARKE, SHERIFF, MILWAUKEE COUNTY, WI

    Mr. Clarke. Thank you, sir. Good morning, everybody.
    I am the newly appointed Sheriff, having been appointed in 
March of this year, but I do have somewhat of an advantage in 
that in my previous position as commanding officer of the 
Intelligence Division of the Milwaukee Police Department, my 
unit was responsible for the very thing that we're talking 
about today. So while I have limited training and limited 
knowledge in that area, I do have some.
    The thing that is most critical to me and to us at the law 
enforcement level is the information sharing. I have heard Tom 
Rich, Governor Tom Rich, Homeland Security Director, and U.S. 
Attorney General John Ashcroft say many times that homeland 
security is a local issue, and it really is. The information 
sharing for us is critical at all levels.
    We still need to work at tearing down some of these 
jurisdictional boundaries, just in terms of--you know, not our 
responsibilities, but in terms of information sharing. One of 
the areas that I would like to see improved on is the security 
clearance process, which is a very cumbersome process to go 
through, to be able to get that clearance to receive a higher 
level of confidential information. I understand the importance 
of the confidentiality of this information; however, I think 
for the heads of agencies, like myself and chiefs of police, 
there could be a more streamlined process so that we have--so 
that our counterparts at the various levels; for instance, Jeff 
Burke and Dave Mitchell with the FBI, Dan Jones with the local 
ATF office, John Bergland of the Secret Service, people that I 
interact with frequently, so that they can actually share that 
information with me, with the understanding that it is 
sensitive and not everybody needs to know it, but I think the 
head of the agency does, especially with my countywide 
jurisdiction. So I would like to see some improvements there.
    The other area of concern for me is we do not really seem 
to have an infrastructure in place with which to share 
information and we are relying on faxes, we are relying on 
phone calls. The best example I can give that we have here in 
the county in terms of information sharing is with the HIDTA 
organization, the high intensity drug trafficking area, where 
we do have an infrastructure utilizing the computer, that many 
agencies, different jurisdictions, different levels of 
jurisdiction have access to. Of course it is not open to 
everybody, you need certain clearance and passwords to get into 
certain information. However, that infrastructure that was set 
up for the information--and that is why it was set up the way 
it was, for information sharing at different levels because you 
have Federal involvement, you have State involvement and you 
have local involvement and so there is a central point that 
people can go to, to obtain information as well as disseminate 
information.
    So, like I said, having jurisdiction for the entire county, 
I think the Milwaukee County Sheriff's Office would be the most 
reasonable place to start in terms of being the central focal 
point for receiving the information from the various levels. 
And it would be my responsibility to disseminate that amongst 
the municipal agencies within the County of Milwaukee.
    That is really all I have to add at this point. Thank you.
    Mr. Horn. Well, thank you. That is very helpful for us and 
you have made some good points there. And other sheriffs such 
as you and other responders certainly agree with what you are 
saying. We will get to that in a few minutes.
    Right now, I would like to have another from the State of 
Wisconsin here. Why do we not have the Commander Mark R. 
Devries, the Marine Safety Office in Milwaukee. So if we could 
get that view on emergency response, it would be helpful. Mr. 
Devries.
    Mr. Devries. Thank you, Mr. Chairman. If I understand, 
would you like us, the Coast Guard, to present our oral 
statement at this point? If so, my counterpart, Captain 
Hartley, will be delivering that.
    Mr. Horn. Go ahead. I just want to see the locals and then 
go right to the Federal.
    Captain Hartley. Mr. Chairman, my name is Scott Hartley and 
I am here to represent the National Strike Force, which is also 
an entity in the Coast Guard, but I was going to provide a 
national perspective on that.
    Mr. Horn. Sure. I just wanted the local points here, 
because some of our colleagues might have to go to other 
things, so we would like to get the view locally and then get 
some questions and then get to various Federal.

  STATEMENT OF MARK DEVRIES, COMMANDER, MARINE SAFETY OFFICE, 
                         MILWAUKEE, WI

    Mr. Devries. Thank you, Mr. Chairman, I will go ahead and 
try to share a local perspective.
    As the Commanding Officer of the Marine Safety Office here 
in Milwaukee, I have the responsibility for eastern Wisconsin, 
stretching up through Green Bay and above Washington Island and 
back south to the Illinois border. In my capacity as the 
commanding officer, I am also the Federal on-scene coordinator 
under the National Contingency Plan for the response to oil and 
hazardous material incidents.
    We feel that the approach to weapons of mass destruction 
events nearly always will include an incident which will be 
either a chemical or hazardous material type response. And 
under the National Contingency Plan, I will be responsible for 
working with my partners in the State and local government as 
well as the other Federal agencies as a coordinator in forming 
a response to an incident such as that.
    Under the National Contingency Plan, we operate in the 
incident command system with a unified command. Wisconsin 
brings an extra added dimension, which I am quite pleased to 
say I think works really well, and that is the fact that 
Wisconsin is a home rule State. The result of that is that I 
believe in the different areas that I have been stationed 
throughout the Nation, I find here in Wisconsin that there is 
responsibility and authority placed at the local level for 
government services that results in an outstanding 
participation, wonderful relationships and great interest in 
planning and actually preparing and executing responses. As 
such, we have wonderful participation in our area committee, 
which is responsible for the area plan which is the framework 
which we respond to these incidents under. The relationships 
that we have built since we brought the added security 
dimension to our response network has only grown further with 
our relationship with the FBI, the Sheriff's Office in the form 
of the emergency management side of the Sheriff's Office.
    The primary fact that what we have here is a coordination 
type role in the State locally, we work the contingency plans, 
we exercise them; in 2000, we held a weapons of mass 
destruction exercise which involved the participation for 
planning and actually executing the exercise with the county 
emergency management. We participated in that exercise, we had 
the FBI and the whole response network that became part of 
that.
    We just recently had a triennial exercise under the 
National Contingency Plan which requires us to exercise our 
ability to respond under the area plan. And interestingly 
enough, including the Y2K events, all of our events have been 
operated and set up out of the emergency operations center of 
the county. That in itself represents I think a strong 
relationship between the response--the local response 
community.
    I will stop at that point and be glad to take any 
questions.
    Mr. Horn. Thank you. We will now have one more local and in 
this group--and this is the first time we have tried these 
sorts of things, to try to get groups and then move to the next 
one. And let me ask about the Administrator for Wisconsin 
Emergency Management, get that on the table, Edward Gleason.

STATEMENT OF EDWARD GLEASON, ADMINISTRATOR, WISCONSIN EMERGENCY 
      MANAGEMENT AND HOMELAND SECURITY ADVISOR TO GOVERNOR

    Mr. Gleason. Thank you. Good morning, Mr. Chairman and 
members of this committee. I appreciate the opportunity to 
testify this morning. My name is Ed Gleason, I serve as the 
Administrator of Wisconsin Emergency Management, as Homeland 
Security Advisor to Governor Scott McCallum and also as Co-
Chair of the Governor's Task Force on Terrorism Preparedness.
    Here in Wisconsin, we did not wake up on September 12 and 
decide that we needed to do something. We have been working to 
raise our preparedness levels for the past 5 years. We have two 
cities in Wisconsin, Milwaukee and Madison, among the 120 
cities nationwide that have received Federal assistance to 
prepare for terrorism as a result of the passage of the Nunn-
Lugar Act.
    This assistance has helped these two metropolitan areas 
considerably; however, it left the rest of the State less than 
prepared. Something else was needed to reach our cities and 
counties that lie outside the major urban areas. In 2000, the 
U.S. Department of Justice and the Federal Emergency Management 
Agency broadened the program and released equipment and 
planning grants to include these areas.
    Counties that applied for the funding were required to 
conduct threat and vulnerability assessments of their 
jurisdictions, determine what their local capabilities are to 
meet these threats and to identify future equipment needs.
    Using these assessments, last October, Wisconsin became the 
tenth State in the Nation to complete the Statewide strategic 
plan for domestic preparedness. This freed up $3.8 million of 
fiscal year 1999, 2000 and 2001 funding.
    Our Statewide assessment detailed a need for over $16 
million though, for essential equipment, so you can see that 
there clearly is not enough money at this time. The fact that 
these funds have come as 100 percent funding and no match is 
required has helped our communities considerably. We do believe 
at a time when we are struggling to build capacity, it is 
extremely helpful not to be challenged by identifying a 
requisite match.
    A significant problem with these funds, however, was the 
lack of flexibility in spending the allocated dollars. The 
Office of Justice Programs has an Authorized Equipment List 
that is somewhat limited. And when you want to deviate from 
this list, it requires a detailed justification that consumes 
considerable time.
    It has been a demanding grant to administer, as evidenced 
by how long it has taken to get the dollars down to the 
streets. In Wisconsin, we have expended about 50 percent of 
those funds, 95 percent of those are allocated to local 
communities. However, our spending rate, I would dare venture 
is probably ahead of the rest of the Nation. Flexibility should 
be the key in designing future grant programs.
    We have just on Friday, submitted our 2002 grant. The 
Justice Department has expanded the eligible areas under this 
grant program. We will receive nearly $6 million for program 
and exercise needs. This will help considerably in our 
preparedness efforts, but still our needs are greater than the 
funds available. We believe that the 2003 First Responder 
Initiative dollars proposed by President Bush will further help 
our preparedness efforts.
    The First Responder Initiative should help immeasurably in 
raising our preparedness levels. However, probably more 
appropriately the name for this initiative should be emergency 
responder initiative vice first responder, to broaden the 
eligibility for those who could receive these funds. By most 
definitions, first responders are law enforcement, fire service 
and EMS, emergency medical services, personnel who are often 
the first to respond and enter harm's way. They do need and 
deserve, rightly deserve, our highest effort to get them this 
protection. Yet, there are a cadre of disciplines who may also 
be thrust in harm's way and we need to be able to provide them 
with the appropriate equipment and the flexibility to do so. 
These response disciplines could be public health 
professionals, public works personnel and emergency management 
personnel. All may need consideration for this funding and I 
suggest you leave it to the Governors to designate who should 
be eligible for these funds.
    Two weeks ago, I was present to hear Governor Ridge's 
remarks to the U.S. Conference of Mayors in Madison. The mayors 
asked if he would provide block grants directly to the cities 
to help them in their preparedness efforts. I strongly support 
his response, that the grants should not be block grants to 
municipalities, rather they should be provided to the States 
through the Governors. I believe that we need to do this if we 
hope to build a Statewide system that can complement our 
national system. I believe block grants tend to create islands 
of response capabilities, that may not add to the system as a 
whole.
    It will also be tough in these difficult financial times 
for the State and local governments to provide a hard match to 
these 2003 funds. We would like to see no match at all or a 
recognition for the efforts as the appropriate match for these 
funds.
    Last October, FEMA led a team of Federal agencies to 
Wisconsin to jointly assess with us our terrorism preparedness 
response capability in 18 critical areas. We arrived at more 
than 40 action items that when implemented will improve 
Wisconsin's preparedness in response capabilities.
    A few examples of these action items include the following: 
Promoting incident command systems to manage disaster response; 
strengthening intrastate mutual aid; improving the 
interoperability of communications; further strengthening lab 
capabilities; and seeking the designation of a full time civil 
support team comprised of 22 National Guard soldiers trained 
and equipped to face chemical, biological and radiological 
threats. There are 32 States in the Nation with these teams and 
we strongly feel that this capability should reside also in 
Wisconsin.
    I would like to conclude with a brief comment on the 
proposed Department of Homeland Security. Governor McCallum and 
I support the President's proposal. We believe it is a sound 
concept to tackle the challenges our Nation faces. I offer this 
perspective as a State director of emergency management and as 
a retired Coast Guard officer.
    I appreciate the opportunity provided today. As a Nation, 
we have much work to do and the States appreciate the 
leadership of the President and Congress in providing funding 
to help us get there.
    I ask that you continue to be flexible in the 
administration of these funds as we collectively work to make 
our Nation better prepared.
    Thank you.
    Mr. Horn. Thank you. We appreciate those ideas.
    And now we will move to the Federal portion of the law 
enforcement issues as we have had at the local and State level. 
We will have Jeffrey J. Berkin, the Assistant Special Agent in 
Charge, Milwaukee Division, Federal Bureau of Investigation.
    [The prepared statement of Mr. Gleason follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.001
    
    [GRAPHIC] [TIFF OMITTED] T7017.002
    
    [GRAPHIC] [TIFF OMITTED] T7017.003
    
    [GRAPHIC] [TIFF OMITTED] T7017.004
    
    [GRAPHIC] [TIFF OMITTED] T7017.005
    
    [GRAPHIC] [TIFF OMITTED] T7017.006
    
    [GRAPHIC] [TIFF OMITTED] T7017.007
    
    [GRAPHIC] [TIFF OMITTED] T7017.008
    
    [GRAPHIC] [TIFF OMITTED] T7017.009
    
    [GRAPHIC] [TIFF OMITTED] T7017.010
    
    [GRAPHIC] [TIFF OMITTED] T7017.011
    
    [GRAPHIC] [TIFF OMITTED] T7017.012
    
  STATEMENT OF JEFFREY J. BERKIN, ASSISTANT SPECIAL AGENT IN 
  CHARGE, MILWAUKEE DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Mr. Berkin. Good morning, Chairman Horn, thank you. Good 
morning, distinguished members of the Wisconsin delegation. I 
appreciate the opportunity to appear before you today to speak 
to the FBI in Wisconsin's efforts in the area of weapons of 
mass destruction preparedness and response.
    Basically the focus of FBI efforts to address WMD threats 
is on prevention. We view prevention as having a number of 
components or elements, if you like. That is because we view 
prevention as a defense in depth where we try to have a series 
of barriers to anyone who would do us harm.
    The first layer perhaps is intelligence acquisition. That 
is the collection of intelligence information from our own 
human and technical sources, from liaison with our Federal, 
State and local partners and from our foreign liaison partners.
    Once that intelligence is acquired, we engage in 
intelligence analysis. That, together with the collection, 
gives us the nature of the threat.
    From there, we go to information sharing and I will speak a 
little bit more about that in a moment.
    We also assist with physical security at target sites, 
particularly for specific events, to try to help harden those 
potential targets. We assist in addressing information 
assurance; that is, the security of information systems, 
computer systems, from the cyber threat.
    We also assist in addressing personnel security issues, not 
replacing the private sector or local security efforts, but 
where someone comes to a heightened level of attention because 
they provide some indicia of suspicion, we can address that as 
well.
    And last, of course, we engage in an aggressive and 
thorough investigation of identified threats to deter, to 
disrupt and to defeat terrorist operations and efforts against 
us.
    For a moment, I would like to speak about information 
sharing, because that is a very important topic and one which 
has received a lot of notice of late. Here in Wisconsin, we 
engage in information sharing through a variety of mechanisms 
and I would like to share those with you briefly.
    First and foremost is our Joint Terrorism Task Force. 
Twelve different agencies, State, Federal and local are 
represented on that task force, which is housed and led by the 
FBI. It is located not only here in Milwaukee but also in 
Madison to provide adequate Statewide coverage. These law 
enforcement agencies that work side by side with us, of course, 
have access to the information that we have, so that they in 
turn can take it back to their parent agencies and assist in 
the dissemination of intelligence information.
    We distribute information via computer systems through a 
number of ways: NLETS, the National Law Enforcement 
Telecommunications System, sends teletype warning messages to 
every police department and sheriff's office that is equipped 
to receive them. LEO, Law Enforcement Online, an FBI sponsored 
information system, similarly sends out threat information and 
intelligence information. Those accounts are available to local 
law enforcement officers who care to have them. WILENET, a 
Wisconsin-specific Law Enforcement Network. We obtained 
authorization to input threat information into WILENET, again 
for those departments which perhaps have access to it but not 
to the other systems. We have a program known as InfraGard, 
which is a private/public partnership with private industry, 
designed primarily to protect private corporations against 
cyber threats. We have another program called ANSIR primarily 
focused on counter-espionage and counter-terrorism. And perhaps 
one of the more important ones is management representation at 
public forums, for particularly law enforcement forums, where 
management distributes information at venues such as the 
monthly meetings of the Wisconsin chiefs of police, the 
Milwaukee County chiefs of police, Waukesha County chiefs of 
police and the like. We go to these meetings and we always 
bring up information when it is relevant.
    Of course, beyond prevention, we address the response to a 
terrorist event, and we do that through training, through 
liaison, through national FBI resources and assets such as the 
National Hazardous Materials Response Unit, Hostage Rescue 
Team, the National Infrastructure Protection Center and other 
national resources which we can bring to bear here in Wisconsin 
if we become overwhelmed in terms of resources. We also, of 
course, develop response plans, so that we have a blueprint to 
follow in the event that something does occur. And again, last, 
but not least, investigation and prosecution, which is our core 
competency, our traditional function. We of course perform that 
function here in Wisconsin as well.
    But the point I would like to make is that really our 
primary emphasis is on prevention and I have given you some of 
the ways in which we attempt to successfully address that.
    That concludes my oral presentation this morning. Thank 
you.
    Mr. Horn. Well, thank you, I appreciate it.
    We will now get a view of the Federal Emergency Management 
Agency through the region and to tell us all about that, Edward 
G. Buikema, the Regional Director. And we thank you for coming 
over here to give us some of your take on this.
    [The prepared statement of Mr. Berkin follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.013
    
    [GRAPHIC] [TIFF OMITTED] T7017.014
    
    [GRAPHIC] [TIFF OMITTED] T7017.015
    
    [GRAPHIC] [TIFF OMITTED] T7017.016
    
    [GRAPHIC] [TIFF OMITTED] T7017.017
    
    [GRAPHIC] [TIFF OMITTED] T7017.018
    
    [GRAPHIC] [TIFF OMITTED] T7017.019
    
    [GRAPHIC] [TIFF OMITTED] T7017.020
    
    [GRAPHIC] [TIFF OMITTED] T7017.021
    
  STATEMENT OF EDWARD G. BUIKEMA, REGIONAL DIRECTOR, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Buikema. Thank you and good morning, Mr. Chairman and 
members of the Wisconsin delegation. I am Ed Buikema, Director 
of Region V of the Federal Emergency Management Agency.
    FEMA Region V includes the States of Illinois, Indiana, 
Michigan, Minnesota, Ohio and Wisconsin representing a 
population of approximately 51 million people with the majority 
residing in urban areas. We have significant disaster activity 
within the region, having administered 48 Presidential Disaster 
Declarations within the last 5 years, with many events 
impacting multiple States. Presently, four of Region V's six 
States have active major Presidential Disaster Declarations. 
Illinois' declaration is for high winds, tornadoes and 
flooding. Indiana, Michigan and Minnesota have declarations for 
flooding.
    To maintain the readiness for large scale disasters 
including acts of terrorism, regional Federal agencies and the 
States turn to the Federal Response Plan. Under the Federal 
Response Plan, FEMA coordinates a disaster response system that 
involves up to 26 Federal agencies and 12 emergency support 
functions. Each emergency support function has a lead Federal 
agency. Regionally, these emergency support functions have been 
called into action during such disasters as the midwest flood 
of 1993 and the Red River flood of 1997.
    Other regional Federal agencies and our State partners meet 
at least quarterly to share planning efforts, exercise 
preparedness and response plans and devote attention to 
emergency response coordination during specific types of 
natural and manmade disasters.
    The region takes an active role in preparing for a response 
to a terrorism event. FEMA's responsibility is to coordinate 
Federal, regional and State terrorism-related planning, 
training and exercise activities. This includes supporting the 
Nunn-Lugar-Domenici program in which 36 Region V communities 
participate. We are also working with States to build response 
capability and keep them informed of Federal initiatives as 
well as participate in the State-sponsored conferences, 
training exercises, task forces and workshops.
    Just last month, the region hosted a senior leaders 
homeland security summit which brought together selected 
officials and representatives of the first responder community 
throughout our States. The summit provided a forum for 
discussions of issues relating to the fire service and law 
enforcement, funding for planning, training, equipment and 
exercises, border issues, mutual aid agreements and other 
issues pertinent to homeland security.
    All of the States in Region V have implemented proactive 
and aggressive actions in response to the terrorism threats 
that have emerged since September 11th.
    Many States have committed substantial amounts of staff and 
their own financial resources toward preparing for weapons of 
mass destruction events. All States have designated homeland 
security directors.
    Groundwork has been laid or accelerated to develop 
interstate and intrastate mutual aid agreements. Specialized 
response teams are being formed. Legislation is being enacted. 
Training is being conducted and equipment is being purchased. 
State government has spent millions of dollars directly 
responding to homeland security needs and the anthrax crisis.
    While much has been done, we have only begun to scratch the 
surface of what needs to be done. We have identified many 
shortfalls in our Nation's ability to respond to weapons of 
mass destruction events. These shortfalls must be addressed. 
Homeland security initiatives must be sustainable and will 
require an ongoing commitment of Federal, State and local 
resources.
    FEMA has recently realigned to establish the Office of 
National Preparedness at the headquarters and regional level. 
The creation of this office is intended to address a long-
recognized problem, the critical need that exists in this 
country for a central coordination point for the wide range of 
Federal programs dealing with terrorism preparedness.
    I would like to briefly discuss the first responder 
initiative. To support first responders, the President has 
requested $3.5 billion in the 2003 budget. These funds would 
help plan, train, acquire needed equipment and conduct 
exercises in preparation for terrorist attacks and other 
emergencies.
    Right now, FEMA is developing a streamlined and accountable 
procedure that would speed the flow of funds to the first 
responder community. Specifically, the funds would be used to 
support the development of comprehensive response plans for 
terrorist incidents, to purchase equipment needed to respond 
effectively, including a better interoperable communications 
system, the provide training for responding to terrorist 
incidents and for coordinated regular exercise programs.
    The President is requesting funds in the 2002 spring 
supplemental to support the first responder initiative, 
including $175 million to be provided to State and local 
governments to upgrade and in some cases to develop 
comprehensive emergency operations plans. These comprehensive 
plans would form the foundation for the work to be done in 2003 
to prepare first responders for terrorist attacks.
    FEMA has held listening sessions throughout the country 
with first responders and emergency managers at every level to 
solicit their ideas on the design of the grant program process. 
In addition, we are working to resolve other issues critical to 
the success of this initiative: National standards for 
compatible, interoperable equipment. A national mutual aid 
system. Personal protective equipment for first responders. And 
national standards for training and exercises.
    In addition to the right equipment, planning capabilities 
and training, first responders have been telling us that they 
need a single point of contact in Federal Government. In our 
view, it is absolutely essential that the responsibility for 
pulling together and coordinating the myriad of Federal 
programs designed to help local and State responders an 
emergency managers to respond to terrorism be situated in a 
single agency. That is why we are so excited about the 
President's calling for the creation of the Department of 
Homeland Security.
    The functions that FEMA performs will be a key part of the 
mission of the new Department of Homeland Security. The new 
department will strengthen our ability to carry out important 
activities such as building the capacity of State and local 
emergency response personnel to respond to emergencies and 
disasters of all kinds. The new department will administer 
Federal grants under the first responder initiative as well as 
grant programs managed by the Department of Justice, the 
Department of Health and Human Services and FEMA. A core part 
of the Department's emergency preparedness and response 
function will be built directly on the foundation established 
by FEMA. It will continue FEMA's efforts to reduce the loss of 
life and property and protect our Nation's institutions from 
all types of hazards through a comprehensive risk-based all 
hazards emergency management program of preparedness, 
mitigation, response and recovery.
    By bringing other Federal emergency response assets such as 
the Nuclear Emergency Search Team, Radiological Emergency 
Response Team, Radiological Assistance Program, National 
Pharmaceutical Stockpile, the National Disaster Medical System 
and the Metropolitan Medical Response System together with 
FEMA's response capabilities, the new department will allow for 
better coordination than the current situation in which 
response assets are separated in several departments.
    Also the Citizens Corps program is part of the President's 
new Freedom Corps initiative. The initiative brings together 
local government, law enforcement, educational institutions, 
the private sector, faith-based groups and volunteers into a 
cohesive community resource. Citizen Corps is coordinated 
nationally by FEMA, which also provides training standards, 
general information and materials. We also will identify 
additional volunteer programs and initiatives that support the 
goals of the Citizens Corps.
    Thank you for the opportunity to testify here today on the 
efforts of the emergency management community. I will be happy 
to answer any questions you may have.
    Mr. Horn. Thank you. And the last speaker on the emergency 
response issues and the law enforcement issues is Captain Scott 
E. Hartley, Commanding Officer, National Strike Force 
Coordinating Center, U.S. Coast Guard.
    [The prepared statement of Mr. Buikema follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.022
    
    [GRAPHIC] [TIFF OMITTED] T7017.023
    
    [GRAPHIC] [TIFF OMITTED] T7017.024
    
    [GRAPHIC] [TIFF OMITTED] T7017.025
    
    [GRAPHIC] [TIFF OMITTED] T7017.026
    
    [GRAPHIC] [TIFF OMITTED] T7017.027
    
    [GRAPHIC] [TIFF OMITTED] T7017.028
    
    [GRAPHIC] [TIFF OMITTED] T7017.029
    
    [GRAPHIC] [TIFF OMITTED] T7017.030
    
    STATEMENT OF CAPTAIN SCOTT HARTLEY, COMMANDING OFFICER, 
  NATIONAL STRIKE FORCE COORDINATING CENTER, U.S. COAST GUARD

    Captain Hartley. Thank you, Mr. Chairman. Good morning, 
distinguished panel members and the guests that we have here 
today. It is a pleasure to appear before you today.
    I am the Commander of the National Strike Force and I have 
brought along the local Coast Guard rep and he stole some of my 
thunder, but he did well.
    I would like to begin by telling you about the National 
Contingency Plan and National Response System.
    The National Contingency Plan is a result of the Clean 
Water Act of 1972 and the National Response System is a network 
of Federal, State and local agencies with extensive 
capabilities responsible for planning for and responding to oil 
and hazardous material releases under the National Contingency 
Plan.
    This National Response System activates when notification 
is made to the National Response Center, which is also a Coast 
Guard entity, or any of the involved agencies. And a key person 
in the National Response System is the Federal on-scene 
coordinator or FOSC and that is what Commander Devries is here 
in the Eastern Region of Wisconsin.
    Under the National Contingency Plan, it is Commander 
Devries' job as the FOSC to lead local preparedness efforts in 
coordination with State and local agencies and private 
industry, and provide the Federal lead in an actual response.
    During an actual incident, Commander Devries, as the FOSC, 
would set up an organization utilizing the incident command 
system, incorporating Federal, State, local and private 
resources into a focused and efficient response structure.
    As part of the unified command in this response 
organization, the Coast Guard FOSC works closely with officials 
such as the fire chief, State officials such as director of 
response in the Department of Natural Resources and the 
responsible party, to protect life, property and the 
environment.
    When needed, the FOSC can access the Oil Spill Liability 
Trust Fund for oil spills or the Superfund for hazardous 
material releases to fund a response anywhere in the country. 
In addition to local response assets, the FOSC also has access 
to Federal resources such as the National Strike Force, and 
that is where we come in.
    The National Strike Force is one of five special teams 
designated in the National Contingency Plan. We have three 
strike teams in New Jersey, Alabama and California that are 
trained and equipped to conduct hazard assessment, source 
control, contamination reduction, release counter-measures, 
mitigation, decontamination and response management activities, 
all to support the FOSC during an incident.
    Each strike team has 37 active, 50 reserve and one civilian 
and are supported by the National Strike Force Coordination 
Center in North Carolina, which is also home to the National 
Preparedness for Response Exercise Program, the Public 
Information Assist Team and the National Inventory Loss 
Response Resources. All three teams work, train and respond 
together and are completely interoperable and we are on call 24 
hours a day, 7 days a week and we can get there by land, sea or 
air.
    Because of our role in supporting the FOSC during a major 
incident, we are often a participant in many of the local 
preparedness efforts and provide training in incident response 
throughout the country.
    The FOSC is also supported for planning, coordination and 
interoperability by representatives of 16 Federal agencies and 
inclusive of States at the regional level by regional response 
teams, which in turn have a mirror organization for national 
coordination, planning, policies and interagency coordination 
known as the National Response Team.
    The Environmental Protection Agency is the chair and the 
Coast Guard is the vice chair of the National Response Team. 
All of these relationships, roles, capabilities and 
responsibilities are outlined in the National Contingency Plan.
    The National Response System is a valuable time-tested 
response mechanism. All the authorities necessary to respond to 
an incident are pre-designated and pre-authorized and this is 
in keeping with the Presidential Decision Directives 39 and 62, 
which direct the Federal Government to use existing systems for 
weapons of mass destruction rather than creating new systems.
    The National Response System should be a key component of 
the new Department of Homeland Security and should reside in 
the Preparedness and Response Directorate.
    Thank you for the opportunity to testify here today and 
Commander Devries and I would be happy to answer any questions 
you might have.
    [The prepared statement of Captain Hartley follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.031
    
    [GRAPHIC] [TIFF OMITTED] T7017.032
    
    [GRAPHIC] [TIFF OMITTED] T7017.033
    
    [GRAPHIC] [TIFF OMITTED] T7017.034
    
    [GRAPHIC] [TIFF OMITTED] T7017.035
    
    Mr. Horn. Thank you. And now I am going to ask my 
colleagues to pose some questions and we will have in the next 
group, the health-related, and we will have as the wrap-up, 
which we often do, the General Accounting Office, because they 
look at it with 50 different studies they have done on this. 
And like them, if we add any little pieces through the door, we 
want to make sure that we pull it all together. So Director 
Hecker will be after the health. So right now, we are going to 
have the law enforcement, the emergency response questions from 
our colleagues.
    And we have the representative here from Milwaukee. You 
have a good part of Milwaukee, I think.
    Mr. Kleczka. Mr. Chairman, I have the entire city of 
Milwaukee.
    Mr. Horn. Well, it is great. So go ahead.
    Mr. Kleczka. First of all, Mr. Chairman, let me thank you 
for including Milwaukee in your field hearings. I think as we 
have heard already from our law enforcement officials, we are 
working toward providing a very coordinated effort for the 
homeland security of not only the Milwaukee area but the State 
of Wisconsin.
    I want to thank our Mayor for his testimony today and want 
to acknowledge the President of the Common Council, Alderman 
Pratt, who is here and sitting behind him is the newest council 
member for the city of Milwaukee, Alderman Dudzik. So 
gentlemen, welcome also.
    Mr. Chairman, I think we all know what Congress has to do 
to provide for homeland security. I think your hearings around 
the country will enable us to know what the local concerns are. 
You know, when Commander Devries was talking and mentioned Y2K, 
I almost had all but forgotten the big problems we anticipated 
with Y2K. But as I sat here and thought about it for awhile, 
that put into place a lot of the coordination which we can use 
and build upon today. It was a very serious threat, one which 
did not develop into anything serious, and thank God for that.
    However, the President has provided a budget request for 
immediate response in the amount of $3.5 billion and as I look 
over that response, I happen to agree with some of the people 
who testified, like Mr. Gleason, who indicated that the first 
responders are not only the police and the fire departments 
around the country, but there are other health departments, 
health personnel and others who should be included.
    But as I look at that, Mr. Chairman, and I would like the 
Mayor to respond, of the $3.5 billion requested, which I assume 
Congress will go along with, 25 percent of those funds can be 
left with the State to be used at their discretion. As I see 
the State role here, it is one of more coordination. They are 
not the people who are going to buy the communications systems, 
they are not the people who are going to buy the equipment that 
might be necessary, and so my question to you is--and I know 
the Council of Mayors has also made a statement on this--I do 
not know if it is wise for us to give the State the authority 
to retain 25 percent of these funds.
    As you know, there was a large tobacco settlement for the 
State of Wisconsin and it was to be used for smoking cessation 
and other health concerns. But because of the budget fix we are 
in, those dollars are now going to be used for the budget 
deficit. And my fear is with the authority for the State to use 
25 percent of these funds on a discretionary basis, that they 
might not be coming back to the sheriff's department, the fire 
department and things that would probably be more attuned to 
emergency responder.
    Mayor Norquist. Well, there always is that danger. You can 
look at TANF, the welfare funds, some of which have ended up 
being used by States to solve their budget problems instead of 
getting people out of poverty and off welfare. That is always a 
danger.
    I would approach it this way, rather than say cities ought 
to get the money instead of the States, I think that the 
Federal Government should decide what it is going to do to 
fulfill its responsibility to protect the people of America. 
And that funds should follow the function and where things can 
be most effective.
    To make sure that funds are expended efficiently, I am not 
sure that any level of government should be getting 100 percent 
funding from the Federal Government in this area. That might 
sound strange coming from me. I do not completely agree with 
the U.S. Conference of Mayors, which wants to have an 
unrestricted block grant in this area, and I would not agree 
that States ought to just be able to have money to throw 
around.
    We are talking about people's lives here and setting up a 
system that will actually protect people. And so where you have 
capability, for example, the State's lab, which you will hear 
more about from Mr. Chapin later on, or our lab. You know, 
working out who does the testing if there is a chemical threat 
is something that the city of Milwaukee and the State can try 
to work out who does what for what part of the State of 
Wisconsin. But if it becomes just a block grant that people dip 
into and one level of government is given the money to use for 
whatever purposes they decide to use it for, I am not sure that 
you will fulfill your Federal agenda.
    Your CDC is very valuable, it is a great Federal agency 
with tremendous partnerships. You need to decide what you want 
to accomplish and not just try to figure out how to make 
various groups happy.
    So, you know, my plea to you would be to have the money 
follow where it is going to be the most effective. That takes a 
thoughtful approach by the Federal Government, not just making 
State governments happy or local governments happy, but 
figuring out how things will work effectively in Wisconsin or 
California. And you can do this, but I would be careful about 
how you do it and set it up in a way where there are incentives 
for people to focus on what really works and what works 
efficiently rather--the danger, just to close on this--remember 
when you had the concern about riots and civil disturbances 
back in the Vietnam era and the civil rights demonstrations? 
There were some Federal programs set up that led to riot gear, 
water cannons, all those sort of things. Maybe it made sense in 
places where it was likely to happen, but it did not make sense 
in Minot, North Dakota or Decora, Iowa. And yet money was 
expended through law enforcement grants all across the country 
on things that really did not make sense.
    So I think you really have to craft this carefully so that 
it actually provides protection to the people of Sheboygan. 
Maybe it makes sense to find ways to have Sheboygan have an 
incentive to use our lab instead of building their own lab. And 
knowing the Mayor of Sheboygan, I think they would be very open 
to that.
    Mr. Kleczka. Thank you, Mayor.
    Mr. Horn. We will be alternating the questions on a 
bipartisan basis. And we are now going to have 5 minutes for 
Mr. Petri, the other Congressman for the rest of--as far as I 
am concerned--the rest of Wisconsin.
    Mr. Petri. Well, first of all, Mr. Chairman, thank you very 
much for coming to Wisconsin and having this hearing. I think 
people in Wisconsin as well as all across the country are 
concerned about the various aspects of the terrorism threat. We 
have obviously been doing the best that we can to react to what 
happened on September 11th and the anthrax attack and we want 
to be part of the solution to that. And it is a national 
problem, including here in Wisconsin.
    With that said, it is also, it seems to me--I am not on 
your committee; normally, I work in the transportation and 
education area and in the transportation area in particular, 
that is a Federal, State and local responsibility and we have 
found it tends to work best if there is cost-sharing so that 
people who are actually at the local level carrying out the 
programs have some incentive to not gold plate and to kick the 
tires and to make sure they are getting dollars for dollars 
spent, because it is some of their money.
    And I am just curious if any of the witnesses, the Mayor in 
particular, but a number of the others, can help me to 
understand if they feel there is a difference in how far the 
dollars go if it is 100 percent dollars from--and not just how 
far they go, toward achieving the objective of the program, if 
there is cost sharing or if it is 100 percent Federal money. I 
would expect if it is 100 percent Federal money, I would have a 
big incentive at the local level to spend a lot of local money 
on grant writing, which does not really get the job done, it 
just brings the dollars home, rather than on actually achieving 
the objective of the overall program. And if there is local 
share and we do not go for it, it might be because we are all 
working for the same citizens at the end of the day, whether 
you are a citizen of Milwaukee, you are still a citizen of 
Wisconsin and of the country. If the local perception that the 
threat is not that great in that area and they do not really 
want to spend local dollars on it, maybe the Federal Government 
should not force them to do it and should spend the money where 
people perceive the threat to be greater, because they are 
willing to spend their own hard-earned dollars on that threat.
    Mayor Norquist. Well, I think that having some local share 
or State share would help invest in existing infrastructure and 
causing that to be shared with everyone who might feel 
threatened by terrorism, particularly if in-kind matching was 
allowed.
    We already have a lab, the State already has a lab. 
Creating new labs may not be the answer and investing in 
existing infrastructure so that it can serve more people would 
be something that a match would tend to create as opposed to 
100 percent grant where you can go out and create things that 
may not make sense.
    Also, the other reason--I answered part of this to 
Congressman Kleczka, but another reason why I would fear a 100 
percent grant program is that it is utterly insustainable--
there is no question. Every time the Federal Government creates 
a 100 percent grant program, it is the gift that always stops 
giving. Other concerns suddenly pop up in future years and then 
the money is shaved back. There is no point in starting up 
something that would look grand and fantastic to the local and 
State administrators but disappear very quickly in the future. 
I think it is more realistic to set it up right in the first 
place so it is predictable and you can have a commitment by the 
Federal Government to deal with this over the next 10 years or 
so and not just start it up at 100 percent and then walk away a 
few years later.
    Mr. Petri. Mr. Gleason, I should give you a chance to 
expand on this from the State point of view.
    Mr. Gleason. Thank you, Congressman.
    A lot of the points you made and the Mayor made, I do not 
disagree with philosophically, but we are at a point that, you 
know, our Nation is at war and we are trying to build capacity 
in a hurry at the same time where our economies, not just at 
the State government, but at the local governments are 
stretched. And this is a chance right now and it has been our 
chance over the last 4 years of these fiscal dollars, to get us 
in the game. And eventually, I think there should be ownership 
passed back to the local government and State government to 
sustain that effort and make the matches.
    But if we are going to make that difference in the short 
term, at a time when we are facing a $1 billion deficit, the 
no-match requirement certainly takes some of that burden.
    To just address Congressman Kleczka's concern, I had 
mentioned in my testimony, 95 percent of our first year of 
Federal fiscal dollars went to the local communities. I have 
every intent to make it continue at that pace. The idea that 
you need a 25/75, the only thing it does is there are certain 
Statewide capabilities that benefit local units of government 
that really only can be done under the umbrella of the State, 
maybe an integrated justice communication system. You would not 
want that in every municipality developed. So that is why the 
25 percent portion, some of that could fund those type of 
capabilities. But our belief is and the Governor's belief is 
that we are going to push that money down to the local units of 
government.
    Mr. Horn. The gentleman from Milwaukee.
    Mr. Kleczka. Thanks again, Mr. Chairman.
    Mr. Gleason, I should also point out that--and I do agree 
with you that the resources of the State and local units of 
government are stretched; however, so are the resources of the 
Federal Government. In fact, we are anticipating a return to 
yearly Federal deficits, the first one being about $320 
billion. So the money is not flush in Washington, DC, either.
    But let me turn to the whole issue of the Department of 
Homeland Security. Mr. Buikema from FEMA, you indicated you are 
excited over it and you think that this Homeland Security is 
probably going to be the agency that will be best equipped to 
handle any future emergencies. I guess my question of you is--I 
have some concerns about, first of all, the size of the agency. 
If we are streamlining an agency to be an immediate response 
for emergencies, combining 22 current agencies to a department 
of some 170,000 people does not smack of being streamlined, on 
its face.
    But what I am concerned about is two of the agencies that 
are charged with the most responsibility for intelligence as 
far as any future terrorist activity would be the CIA and the 
FBI. Do you not think that they should be made part of this new 
agency or have a more direct linkage to the new Department of 
Homeland Security?
    Mr. Buikema. Well, Congressman, thank you for the question. 
I know that one of the benefits that we perceive of this new 
Department of Homeland Security is in fact the opportunity to 
better communicate, cooperate and collaborate with 
representatives of the some 22 agencies that you mentioned. And 
as has often been said before, there is at least 40 different 
Federal agencies that have some responsibility in one way, 
shape or form.
    The proposal, as I understand it, Congressman, is in fact 
that intelligence would be gathered from a number of 
organizations including the FBI and the CIA, as well as other 
organizations and analyzed in the Department of Homeland 
Security, with the hope and the expectation, of course, that 
will promote closer cooperation and coordination among all 
intelligence gathering organizations.
    So I am confident at this point that in fact the CIA and 
the FBI will be able to provide great coordination and 
communication with the new Department of Homeland Security.
    Mr. Kleczka. And Sheriff Clarke, you mentioned in your 
testimony a concern about the security clearance authority. 
Could you indicate to the committee what is the current level 
of security that your office, the fire department gets and what 
needs to be looked at when we talk about the security info that 
you are getting.
    Mr. Clarke. The application itself is very cumbersome. It 
is probably 10 pages long and the kind of information that they 
need, they want you to go back and list for the last 7 or 10 
years, the times you have been out of the country. And I know 
my wife and I go on vacation every year out of the country, so 
we have to go back and get those dates. I mean I do not 
remember exact dates that I was out of the country.
    Mr. Kleczka. So you are talking about the complex 
application, is the first problem?
    Mr. Clarke. The application, yes, and then the length of 
time that it takes for a thumbs up or thumbs down, to get that 
clearance.
    Mr. Kleczka. Chief, do you have the same--did you have the 
same problem?
    Mr. Gardner. We get a lot of our information directly from 
the FBI and with the sheriff and local police, and they work 
very well with the needs that we have. So if there are imminent 
threats or dangers, they give us an update on that. So I do not 
have the same concern. That is a little bit more law 
enforcement.
    Mr. Kleczka. An added concern would be the holiday coming 
up, the Fourth of July holiday. Did the department receive 
something specific as to what the level of that threat might 
be?
    Mr. Clarke. We received information, I believe it was 
several weeks ago. The exchange of information is adequate.
    Mr. Kleczka. OK.
    Mr. Clarke. But there are some things that cannot be 
released to us because we do not have--or I do not have the 
security clearance at this point. I am going to through the 
process now, I just received the application 2 weeks ago. So I 
am not criticizing the sort of information, but not having a 
security clearance, I am limited as to the sort of information 
I have. And I also have a responsibility to keep the chief 
executive of the county informed of certain situations as well 
as Mayor Norquist having the largest municipality inside the 
county. And so it makes it difficult for me to keep them 
informed, you know, if I am not informed.
    Mr. Kleczka. OK, but the question, using the example of the 
Fourth of July, did you receive enough information to know what 
level that possible threat would be, so you would know how to 
deploy your troops over the holiday period?
    Mr. Clarke. Oh, yes, the answer to that question is yes. We 
have received adequate information.
    Mr. Kleczka. That is good to know, thank you very much. 
Thank you, Mr. Chairman.
    Mr. Horn. Thank you. I will now yield 5 minutes to the 
other gentleman from Wisconsin, Mr. Petri.
    Mr. Petri. Mr. Chairman, I know you have another panel and 
I will not take the full time, but I just wanted to move to 
another area.
    Mr. Mayor, in your testimony, you spoke a bit about efforts 
that Milwaukee had engaged in to increase the security of the 
water supply for the city, probably in response to citizens' 
requests for access to some of the facilities for fishing and 
recreational use.
    This is a major concern on the part of a lot of Federal, 
State and local officials, because we all have water systems, 
most of them are operated by local government and there is a 
tremendous potential vulnerability there.
    I wonder if you could discuss at all what the Federal 
Government is doing to kind of coordinate, or are there 
seminars, are they working with water system managers, how 
great is the real risk. I have heard some people say well, we 
do put chlorine in, purify the water, and therefore if it were 
biological things, it would tend to kill most germs, but there 
is a danger that you could have a chemical illness added that 
was a threat to life or health of people. Could you discuss 
that whole area?
    Mayor Norquist. Sure. We have people that are--Mariano 
Schifalacqua and his staff, he is the head of the Public Works 
Department, and he will be presenting this in more detail, but 
just I think it might be helpful to understand that, you know, 
it is common sense to think that water could be a target. So it 
occurs to people, you know, what are you going to do about it.
    When the September 11th crisis hit, we had people in the 
media and citizens saying well, maybe we should have a patrol 
boat guarding the water intake and our water professionals said 
well, that would not be a very good idea, the intake is below 
the surface of the water and all that would do would be to mark 
where it was. So that would not be the answer.
    But there are things that can be done. Where the water can 
be accessed, where there are major pipes that carry the water 
and there are areas where maintenance people enter, having 
those places secure and under lock and key, so that only the 
maintenance workers get in, that makes sense.
    The electrical generation of the plant needs to be secure. 
The chemicals that are used to treat the water, if they were 
all dumped into the water at one time could create a problem. 
They need to be secure. All of the basic ingredients that have 
to do with production of water, and the threat is not just 
contamination. The shutdown of a water supply could create an 
enormous problem of sanitation and health. So these are all 
things where common sense actually, kind of general knowledge 
that Members of Congress have actually should lead you to ask 
the right questions about it as it goes along.
    Our experience has been pretty good in dealing with the 
Federal Government, the EPA in terms of water security. And the 
consultant that we use is the same one that provided the 
security plan for Los Alamos, and we were already engaged with 
them, because, as I said, we were trying to find more access 
for fishermen near our plant. They will present that more later 
on.
    But I think it is one where congressional oversight 
actually is very relevant because the general questions that 
would occur to you are the same questions that would occur to 
the public and need to be answered.
    Mr. Kleczka. Will my colleague yield?
    Mr. Petri. Yes.
    Mr. Kleczka. You bring up a very, very important point, and 
I should indicate that in the last budget bill for the 
Department of Defense, moneys were appropriated to the setup 
here in Milwaukee in conjunction with the University of 
Wisconsin-Milwaukee, a water security institute. Those dollars 
were appropriated, the institute is being developed and it will 
be monitoring the water supply in the State, especially in the 
Lake Michigan area. I also should point out that in this 
upcoming budget, which--in the budget which we just passed in 
the House last week--an additional $1 million was appropriated 
for furtherance of the duties of Wisconsin Water Institute. So 
it is a concern that Congress also is aware of and addressing.
    Mr. Horn. Mr. Buikema, in your testimony, you state that 
the three counties that are in the emergency planning zone 
around nuclear plants are not interested in stockpiling 
potassium iodide, which can protect the public during a nuclear 
emergency. Could you explain their concern?
    Mr. Buikema. I do not believe that was in my testimony.
    Mr. Gleason. Congressman, I believe that was in my 
testimony.
    Mr. Horn. Sorry. OK, Mr. Gleason.
    Mr. Gleason. Back in December, the Nuclear Regulatory 
Commission had gone to the Governors and asked if they would be 
interested in stockpiling potassium iodide and we did look into 
that, we went and appeared before our task force and our health 
department reviewed it, and we came out with the recommendation 
that we thought it was a reasonable measure to take consistent 
with the Nuclear Regulatory Commission. But it is a change of 
our position, because for years with nuclear plants, we had 
taken a position not to stockpile. We did not want to do 
anything that interfered with the evacuation. And that is 
primarily the concern of the local citizens of those counties, 
is the evacuation. If they felt they had this potassium iodide, 
it would discourage evacuation.
    The second phase of that is testing your ability to 
distribute that. And that is a particular challenge that has 
not been worked out very well throughout the Nation yet.
    So I think those are the two concerns that our counties 
had.
    Mr. Horn. Thank you.
    Captain Hartley, in your testimony, you discussed the Coast 
Guard's participation in training exercises involving weapons 
of mass destruction and chemical releases. What was your 
assessment of the exercises? Did you discover any gaps in your 
response plans? Did all participants fully understand their 
roles and their responsibilities?
    Captain Hartley. I think one of the benefits of any 
exercise that we attend is that you walk away with a better 
sense of what is involved and what you need to do and improve 
on. From our perspective, things are looking much better.
    Mr. Horn. Well, that is heartening.
    Mayor Norquist, with the upcoming Fourth of July 
celebrations, what message would you like to send to the people 
of Milwaukee?
    Mayor Norquist. Love America. I really have not received 
any information about the threat other than what I have read in 
the paper, and my own view is that vague threats that--
intimations of vague threats by Federal agencies without any 
specifics probably do more harm than good and, you know, if 
there is information that needs to be communicated to law 
enforcement agencies and there is some specific reason for 
them, that is vital, they should do it, they should remain very 
active and alert.
    But saying well, the Fourth of July, something bad might 
happen, I do not know what purpose that serves other than maybe 
if something bad did happen, the Federal agency could claim 
they warned everybody--I told you so--they could say that. But 
I do not think it serves a real useful purpose.
    I hope people enjoy the Fourth of July and that they think 
seriously about the importance of our democracy sometime during 
that day.
    Mr. Horn. Mr. Berkin, when we were just finishing up 
various things in the legislative situation in Washington, one 
of them was the very point that people are talking about, how 
we handle the sharing of intelligence with our other colleagues 
in the State, in local and the region and so forth. The 
Judiciary Committee did act on that. We had sent them a bill 
proposed about 2 months ago and another bill was coming through 
which included the CIA. I do not know if you have had any 
direction yet from the agency in Washington, but the theory 
here is to get and to check on intelligence and to make sure 
that the various things can be put with responsible people 
within the sheriff's office, the police department and all the 
rest. And I just wondered if anything has come out from your 
headquarters since they just did it a week or two ago.
    Mr. Berkin. I have not yet seen anything as specific as you 
refer to, Mr. Chairman, but what I can tell you is that for a 
very long time, well in advance of the events of last year, the 
sharing of information between law enforcement agencies, 
between the FBI and its colleagues, whether they be Federal, 
State or local, has been an important issue that every FBI 
field office, including this one, addresses.
    Subsequent to the events of September 11th, an increasing 
premium has been placed upon the value of sharing such 
information and there is more demand for it from our partners 
perhaps than there has been in the past and we are attempting 
to satisfy that demand. That is direction we received from 
Director Mueller directly, indicating that he desires us to 
ensure that the sharing of information with our law enforcement 
colleagues is timely and thorough.
    To that end, we have undertaken all the various steps that 
I alluded to in my oral testimony, and I believe that those 
steps have in fact been effective. Take the example you brought 
up, the sheriff's department, a deputy is housed in our space 
now, is a full time integrated partner with us as an 
investigator. There's two purposes for that. One is to serve as 
a very specific conduit for information back to his own agency, 
but really more so the responsibility of the members of the 
JTTF is to be alert to the equities of their individual 
constituent home agencies. I am not a deputy sheriff, I do not 
necessarily know what Sheriff Clarke, in this instance, might 
personally find to be of special significance to him, although 
I can use my common sense and judgment in that regard. But by 
having people from individual agencies with us, they can be 
alert to their own special equities and they can raise those 
issues with us and say in a given case, this is something that 
my particular agency would like to know more about, it is 
particularly important to us, something that might be lost on 
us through inadvertence. We can avoid that by having colleagues 
from other agencies housed where we are. I myself have been a 
detailee to the Central Intelligence Agency and I know that 
works very well, because in protecting FBI equities there and 
promoting agency equities back to the FBI, I have seen how both 
agencies can benefit from that. I think that same model is 
working on a very specific scale in the Joint Terrorism Task 
Forces.
    Mr. Horn. Well, that is good news. And if other FBI offices 
are doing that around the country, I would give them a parade. 
We have had nothing but cooperation from the FBI on all the 
hearings we have had, and as well in Washington or in the 
field. So we are delighted that you are moving ahead on that 
type of situation.
    Let me now call on--it will not be all we will ask of her, 
but we will start with Jayetta Hecker, the Director of the 
Physical Infrastructure issues, she represents the Comptroller 
General of the United States. He has a 15-year term, so neither 
President nor Congress could get mad at him because he can 
still be there. And he has done a marvelous job, Comptroller 
General of the United States Walker. One of his top people is 
Jayetta Hecker.
    So we would like to know from your Federal, across-the-
whole-nation view on some of these. Give us your thinking on 
this.

STATEMENT OF JAYETTA HECKER, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
                   GENERAL ACCOUNTING OFFICE

    Ms. Hecker. Thank you very much, Mr. Chairman and Mr. 
Petri, we are very pleased to be here today, and focus, if you 
will, on the key aspects of this proposal for a Department of 
Homeland Security on intergovernmental relations and effective 
partnerships with State and local governments. That is the 
presentation that I have had for you today.
    I have four areas that I would like to cover. Some are 
broad areas and comments about the proposed department and then 
three that flow from that--key aspects of effective 
partnerships between levels of government in terms of the 
roles, the performance goals and finally, the appropriate 
government tools that are used.
    As you mentioned earlier, our comments are based on the 
fact that GAO has been looking at key programs targeted to 
control and prepare for terrorism for well over 5 years. I have 
got about 30 reports that are attached to my--references to 
reports attached to my statement, and most significantly 
recently, the Comptroller General spoke just last week on the 
new department and we developed a comprehensive statement and I 
have a few points to summarize from that today.
    My position--everyone else's is kind of self-evident, where 
they come from and why they know anything about this--my 
responsibility is that in support of congressional oversight. I 
oversee all the work looking at key surface programs, in which 
case I work very frequently with Chairman Petri in the Surface 
Committee. Also emergency management programs and also all the 
maritime programs, so I have experience and we have worked 
looking at major Coast Guard challenges in this new 
environment, maritime and port security. I have worked looking 
at the transformation of FEMA and the full range of 
responsibilities and then of course surface programs as well.
    The main point about the department is that it really holds 
promise, but it is anything but a quick fix. We are concerned 
that in fact, it will take substantial time and additional 
resources to realize that promise. And I think one of the 
interesting things is a lot of the comments that you have heard 
today about the challenges, intelligence sharing and clearances 
and relationships with different units--they are not fixed by 
formation of the department. So the underlying challenges 
really remain and the bringing together of some of these 
related agencies does not solve the problem itself.
    Our main concern really though is that the challenge of 
effectively clarifying and partnering the different roles of 
government is not lost in the significant challenges of putting 
this department together. They will face enormous challenges in 
information technology, which I know you know a lot about, and 
the component agencies have their problems, so putting them 
together is a compounding of problems. They will face enormous 
challenges in blending their work forces, in financial 
management, in acquisition tools. And none of that gets to the 
point about really building effective partnerships with State 
and local governments.
    So our concern is as the department is formed that there be 
adequate and continuous focus really on the building of 
effective partnerships with State and local governments. 
Basically, my statement talks about three areas where we think 
there is required focus in not only the department--but the 
strategy that still is not prepared--that needs to guide the 
department, and that is the effective roles of the different 
levels of government, moving toward effective goals and 
measures of what preparedness is. Right now, we do not have 
those measures. We do not have an idea of how well prepared 
different levels of government are. There are efforts to define 
standards and there have been reviews, but there is no 
agreement of what preparedness is or what homeland security is. 
And finally, tools.
    So these are really the critical areas in the formation of 
the department and the essential nature of building effective 
partnerships, we are concerned not be lost in the process of 
pulling together the department.
    Mr. Horn. Thank you. Do the gentlemen from Wisconsin have 
any questions?
    [No response.]
    Mr. Horn. Then we will move into the health-related issues 
and we will start with the Commissioner of Health, city of 
Milwaukee, Dr. Seth Foldy. Thank you.
    [The prepared statement of Ms. Hecker follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.036
    
    [GRAPHIC] [TIFF OMITTED] T7017.037
    
    [GRAPHIC] [TIFF OMITTED] T7017.038
    
    [GRAPHIC] [TIFF OMITTED] T7017.039
    
    [GRAPHIC] [TIFF OMITTED] T7017.040
    
    [GRAPHIC] [TIFF OMITTED] T7017.041
    
    [GRAPHIC] [TIFF OMITTED] T7017.042
    
    [GRAPHIC] [TIFF OMITTED] T7017.043
    
    [GRAPHIC] [TIFF OMITTED] T7017.044
    
    [GRAPHIC] [TIFF OMITTED] T7017.045
    
    [GRAPHIC] [TIFF OMITTED] T7017.046
    
    [GRAPHIC] [TIFF OMITTED] T7017.047
    
    [GRAPHIC] [TIFF OMITTED] T7017.048
    
    [GRAPHIC] [TIFF OMITTED] T7017.049
    
    [GRAPHIC] [TIFF OMITTED] T7017.050
    
    [GRAPHIC] [TIFF OMITTED] T7017.051
    
    [GRAPHIC] [TIFF OMITTED] T7017.052
    
    [GRAPHIC] [TIFF OMITTED] T7017.053
    
    [GRAPHIC] [TIFF OMITTED] T7017.054
    
    [GRAPHIC] [TIFF OMITTED] T7017.055
    
    [GRAPHIC] [TIFF OMITTED] T7017.056
    
    [GRAPHIC] [TIFF OMITTED] T7017.057
    
STATEMENT OF SETH FOLDY, M.D., COMMISSIONER OF HEALTH, CITY OF 
                         MILWAUKEE, WI

    Dr. Foldy. Thank you, Mr. Chairman and members of the 
Wisconsin delegation, Mayor and members of Common Council.
    I have submitted written testimony which begins with laying 
out a scenario in which some 400,000 people across the city of 
Milwaukee mysteriously start developing a medical condition 
that in fact reflected a real condition we faced here in 
Milwaukee in 1993, a situation in which it took several days 
before health authorities could even be sure that an outbreak 
was underway, when it took more days to detect exactly what the 
cause of the outbreak was and additional time to be able to 
understand what the source of the problem was.
    The point that I was trying to make, of course, is that 
bioterrorism and natural disease outbreaks, accidental 
disasters and other problems such as heat waves are events that 
occur on a regular basis and that from a public health 
perspective are not always that different. In each of these 
situations, there are four major points that need to be 
understood from the public health perspective, particularly at 
the local level.
    The first is that prevention is an option if, but only if, 
enough information regarding the threat is understood and acted 
on.
    The second is whether it is a natural event or a terrorist 
event, these are always complex emergencies that require 
coordinated action of up to scores of agencies.
    Third, that health care providers, first responders and the 
public are really depending on public health authorities for 
rapid, authoritative health information; again, whether this is 
a terrorist or non-terrorist event.
    And finally, and particularly in the case of communicable 
disease, the source of an outbreak is typically obscure and 
sophisticated epidemiologic, environmental and laboratory tools 
are required to identify and eliminate the source.
    Now why do I come to a hearing on terrorism preparedness 
and talk about non-terrorist events? It certainly is not 
because I intend to argue that the public health work force and 
infrastructure is well prepared to deal with terrorism. In 
fact, the thin white line that protects the American population 
from both natural and manmade agents has actually eroded over 
the last half of the 20th century, although we in Milwaukee are 
proud that we have wrung enormous lessons out of each of the 
emergencies that we have faced over the last decade. 
Nevertheless, until recently, we would consider many of our 
solutions jerry-rigged and perhaps not adequate for the next 
challenge.
    What I do want to reinforce is the understanding that 
Congress endorsed in the Public Health Threats and Emergencies 
Act of 2001, and that is precisely that the need to respond to 
the needs of terrorist activity must also simultaneously 
strengthen total public health infrastructure of the Nation, 
and not simply create new programs for terrorism.
    The same infrastructure that is needed for bioterrorism 
must also support our defenses against natural outbreaks and 
accidental disasters. Otherwise, we have ended up weakening and 
not strengthening homeland security.
    I would like to point out the testimony presented last week 
by the General Accounting Office, their concern that merging 
general purpose public health functions of the Centers for 
Disease Control and Prevention into the Department of Homeland 
Security could weaken the fabric of our all-purpose public 
health response capacity.
    I would like to point out, for example, how perhaps 
somebody who is concerned exclusively with terrorism might view 
the national pharmaceutical stockpile as an important homeland 
security issue. I view the national pharmaceutical stockpile as 
creating an essential infrastructure should there be a natural 
outbreak of endemic influenza in the country that would require 
the rapid production and dissemination of a specialized vaccine 
across the country. So it is critical for us to examine how 
these programs can continue to integrate, whether or not we 
create a new department.
    I would like to note that in Milwaukee, we have actually 
aggressively integrated our efforts with those of law 
enforcement and public safety. We are actually becoming members 
of the Joint Terrorism Task Force that was previously 
mentioned, and by doing so, we are grafting a full service 
public health response onto local law enforcement and public 
safety, rather than creating a pale shadow public health entity 
that would duplicate our efforts.
    I would like to point out to the committee that in the 2001 
and 2002 appropriations for public health and bioterrorism 
preparedness, Congress did take a tack that might be useful in 
other situations as well. And that is to award funds to States 
with the understanding that 80 percent of those funds go to 
support the infrastructure of local public health agencies.
    I would like to point out that information collection, 
management and sharing is one of the critical issues that is 
faced by public health related to bioterrorism as well as other 
public health emergencies and that funding for this type of 
information sharing and management is actually one of the 
critical tasks. Furthermore, that the responsibility for such 
information sharing does need to be located at DHHS because it 
does reflect the sharing of confidential health information, 
the sharing of information that may be generated by medical 
billing systems. There are certainly ethical and medical/legal 
concerns that are related to this information process and, 
therefore, we think in the end, HHS will need to play a 
critical role in the development, similar to the development of 
its national electronic disease surveillance system and health 
alert network.
    Just in closing, I would like to notice a couple of real 
positives in Federal policy. We were quite satisfied with the 
sophisticated laboratory response that Wisconsin was able to 
muster over the last several months regarding anthrax powder 
concerns that existed primarily because CDC's laboratory 
response network had better prepared both State and local 
public health laboratories to respond to that emergency.
    And I would like to point out to the subcommittee that HHS, 
CDC and the Health Resources and Services Administration acted 
extremely expeditiously in the distribution of terrorism and 
emergency public health preparedness funds from the 2001 
December appropriation. Within months, clear guidance had been 
issued, funding has been initiated and I would suggest that the 
subcommittee examine the carefully defined emergency 
preparedness capabilities that formed the framework of CDC's 
grant program, to better understand the true inter-relatedness 
of public health programs and their capabilities and how they 
may interact effectively with the Nation's larger preparedness 
agenda.
    [The prepared statement of Dr. Foldy follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.058
    
    [GRAPHIC] [TIFF OMITTED] T7017.059
    
    [GRAPHIC] [TIFF OMITTED] T7017.060
    
    [GRAPHIC] [TIFF OMITTED] T7017.061
    
    [GRAPHIC] [TIFF OMITTED] T7017.062
    
    [GRAPHIC] [TIFF OMITTED] T7017.063
    
    [GRAPHIC] [TIFF OMITTED] T7017.064
    
    [GRAPHIC] [TIFF OMITTED] T7017.065
    
    [GRAPHIC] [TIFF OMITTED] T7017.066
    
    [GRAPHIC] [TIFF OMITTED] T7017.067
    
    [GRAPHIC] [TIFF OMITTED] T7017.068
    
    [GRAPHIC] [TIFF OMITTED] T7017.069
    
    Mr. Horn. Thank you. Before we call on the Administrator 
for the State of Wisconsin Department of Public Health, I want 
to put on the record that I have an excellent paper here by the 
Commissioner of the Department of Public Works of Milwaukee, 
Mariano Schifalacqua. It is the best I have seen in a number of 
hearings around America and it has to do with water quality. 
That is a very important thing and has a major part in the 
health situation.
    When I was in Europe a few months ago, four terrorists were 
caught attempting to taint Rome's supply of water. Thankfully, 
they got them in time. Otherwise, the whole population of Rome 
would have been poisoned.
    So I would like to have Mariano lay it out for us. It is a 
marvelous paper, as far as I am concerned.

   STATEMENT OF MARIANO SCHIFALACQUA, COMMISSIONER OF PUBLIC 
    WORKS, DEPARTMENT OF PUBLIC WORKS, CITY OF MILWAUKEE, WI

    Mr. Schifalacqua. Thank you, Mr. Chairman.
    I will not go into all the details that are in that 
statement, but there are a couple of areas that I think are 
important to highlight.
    First of all, I want to thank the members for the 
opportunity to address you on this critically important topic. 
While all aspects of public works may be required to respond in 
an emergency, I wish to focus on one basic but essential public 
service, which is the Milwaukee Water Works.
    The Water Works is a wholly owned and operated water 
utility within the primary government of the city of Milwaukee. 
As such, each year, the Water Works treats and distributes 
approximately 41 billion gallons of pure, clean Lake Michigan 
water to 845,000 people including the city of Milwaukee 
residents and 14 surrounding suburban communities.
    Water service in Milwaukee is accomplished by two major 
water treatment plants which draw water from Lake Michigan, 
effectively treating that water and then distributing it 
through numerous major pumping stations, booster stations, 
elevated and ground storage facility as well as over 1950 miles 
of water mains. Water systems in general have been identified 
as a vulnerable asset simply because of their large expanse and 
ability to reach into almost every household and street corner.
    A common carrier of drinking water, under the right 
circumstances, can potentially become a common carrier of 
biological, chemical or nuclear agents. Improving security 
effectiveness or reducing the consequences of an attack can be 
effective means of reducing the risk to water infrastructure 
and ultimately impact the public health.
    The city of Milwaukee has proactively been involved in this 
effort. In 1999, we conducted a security review of our water 
plant facilities primarily focused on physical deterrents. 
Based on those results, we identified areas requiring remedial 
solutions and funded those with local funds in 2000, 2001 and 
2002. This assessment helped focus our efforts in defining the 
appropriate level of threat to large water utilities and the 
response required to minimize that threat.
    Much of the activity has been focused on short-term 
physical improvements such as 24-hour around-the-clock security 
presence, increased use of surveillance and lighting 
techniques, increased access control and monitoring, 
strengthening barriers such as doors, alarms, locks and 
instituting more rigorous protocols and procedures.
    Other efforts focused on increased education and training, 
resource identification and sharing, contingency and emergency 
response planning with health, fire, police, State and Federal 
agencies. Many of these same activities have been ongoing 
concurrently in other public and private sectors; however, 
those sectors do not share in the same level of accessibility 
that a water supply and distribution system have.
    We applaud Congress for the supplemental appropriation this 
year of $90 million to the EPA for the purpose of issuing 
direct grants to large water utilities to conduct vulnerability 
assessments and related response planning activities. Milwaukee 
is scheduled to receive a share of that appropriation at a time 
when this need is the greatest.
    Continued direct support at the local level is required in 
order for all water utilities to move from the initial short-
term response and assessment into the development, research, 
implementation and construction of the recommendations derived 
from those assessments.
    There are many avenues available to accomplish this. While 
some work has already commenced, the issues are complex and 
cover many different groups, agencies, jurisdictions and 
levels. The Federal Government needs to continue to work to 
ensure that effective and efficient response, resources and 
support is directly available to agencies on the local, 
municipal and county levels as first responders to those 
potential threats and events.
    Thank you and I would be more than happy to answer any 
questions you may have.
    Mr. Horn. I thank you and we will now have the 
Administrator for the Department of Public Health, State of 
Wisconsin, John D. Chapin. We are glad to have you here.
    [The prepared statement of Mr. Schifalacqua follows:]

    [GRAPHIC] [TIFF OMITTED] T7017.070
    
    [GRAPHIC] [TIFF OMITTED] T7017.071
    
    [GRAPHIC] [TIFF OMITTED] T7017.072
    
     STATEMENT OF JOHN D. CHAPIN, ADMINISTRATOR, WISCONSIN 
                  DEPARTMENT OF PUBLIC HEALTH

    Mr. Chapin. Thank you. The hour is late and you have heard 
much wisdom here, so I am not going to give you more wisdom. I 
just want to reinforce four words of wisdom you have heard.
    You heard Mayor Norquist talk about function, which is if 
this stuff does not work, then it is a waste of time and it put 
lives at risk. You have heard Commissioner Foldy define 
functionality as it not only has to work in terms of the threat 
of bioterrorism, but the dual functionality of public health 
means it has to work for the everyday business of public 
health. Otherwise, we are just going to have tyvek suits and 
civil defense barrels sitting in the basement.
    You have heard a word of wisdom from Ed Gleason in terms of 
flexibility. You have heard people talk about, such as our 
representative from FEMA, the fear of fragmentation.
    And let me put those four words together. Our problem is 
how to functionally fund all the partners, but to do so in a 
manner that avoids fragmentation, yet retains flexibility. And 
that is why I am glad I am here and you are in Congress, 
because that is the paradox you face.
    And let me just give four quick examples and be done. And 
again, using the words of other wise people around this room. 
When my department was writing the proposal for the CDC and 
HRSA, we took much to heart the words of Mayor Norquist, 
although he hadn't spoke them yet, which was the job of us as 
government officials was not to please everyone, but to have a 
functional proposal.
    And let me talk about the dilemma. In Wisconsin, we have 72 
counties, 100 health departments, 11 tribes, 450 EMS services 
and if we wanted to give everyone a piece of the action, it 
would raise a fundamental question of have we done anything to 
increase functionality. And so our approach was one of let us 
not fund any health department, any EMS, any city, any 
hospital, of which there is 130 directly, but let us require 
them to form multi-county consortiums, let us require hospitals 
and EMS to form trauma regions and then let us fund them 
cooperatively and collectively, because what do we know about 
jurisdictions in Wisconsin? First of all, they are all formed 
in the 19th century. Second, biological entities do not care if 
they cross the county line or the village boundaries. Third, 
there is not enough money to fund every jurisdiction up to the 
point of self-sufficiency. And last, any mass biological event 
will overwhelm any one individual jurisdiction; and therefore, 
our approach is to move the money out of the State to the 
localities, but to do it in terms of regional structures that 
offer mutual response.
    The second thing--and I will reinforce what Chief Clarke 
said about the cacophony of information jurisdictions and 
confusion as to all these different information systems. We 
said in Wisconsin that the two fundamental pieces of CDC's 
information system, the Health Alert Network and the National 
Electronic Disease Surveillance System should be welded 
together. The information going out and the information coming 
in should all be consistent within one pipeline. And in 
addition, in Wisconsin, we put together an information steering 
committee to make sure that every jurisdiction does not go out 
and buy their own software to please their own needs so that 
none of it links together. And that is one of the fundamental 
requirements we have, which is whatever you buy with this 
money, it has all got to fit in the HON and NEDS pipeline and 
we are going to do it together, so it is not like 19th century 
militia and everybody shows up with their different musket with 
a different caliber. That led to Bull Run, by the way.
    The other thing we wanted to do was to ensure that all 
partners of public health were funded. And by that, I mean both 
private and public dimensions. You have heard a great deal 
about laboratory capacity. The plan in Wisconsin is to have 
four centers of laboratory capacity--the State Lab of Hygiene, 
the incredible Milwaukee Public Health Department Laboratory, 
the VA Laboratory and the Marshview Clinic in northern 
Wisconsin, yet that is a private entity. We were having a bit 
of a discussion with CDC, who seems to think that public health 
is only the public sector. And what we are saying to them is 
no, we want to fund a private lab because we think citizens 
north of Highway 29 need to have laboratory capacity and 
whether it is private or public does not matter if it is part 
of the public health system.
    The other thing we are trying to do is in terms of 
accountability. We think that for training, we have to use all 
the educational resources of Wisconsin and not create new 
structures, which is put a coalition together of the medical 
schools, the five schools of nursing, the VA system and give 
them the charge of helping educate all professionals, business, 
labor, community members because education for public health 
disaster has to be for the whole public.
    And last, issues of accountability. These dollars are 
scarce, nobody has enough money. And therefore, we are putting 
out contracts for every single dollar with performance 
requirements whereby whether we the State, local or private 
entities are not successful, we want some of that money back so 
we can redeploy it to people who have been successful.
    And I would like to end by urging you to go back to these 
four words, as you think about your job, which is what we do 
has to be functional, it has got to fund all partners of public 
health, yet please give us the flexibility at the State level 
so that we can do what is creative. Because the four 
innovations I just told you are not asked for in either the CDC 
or the HRSA grants. We did it because we thought we needed to 
do it. And the last is, do not let this scarce money be 
fragmented into 1000 pieces without appropriate coordination.
    And I want to thank the Congress for supporting public 
health and urge our Federal partners good luck in their 
tremendous task ahead and to tell you that the good people of 
Wisconsin at the local, State government will work together and 
will be successful.
    Thank you very much.
    Mr. Horn. Well, thank you because I was particularly 
interested on the funding of the private lab and the worry of 
CDC on that. Let me talk about another laboratory in a State as 
great and different types of topography and all the rest, and 
let us say we had a germ warfare scenerio going on. Would any 
of the community colleges' laboratories besides the two great 
universities and perhaps the various colleges that are in 
Wisconsin play a role?
    Mr. Chapin. Let me raise the ante from your example one 
more. Wisconsin also has a wonderful biotechnical industry. Our 
State Lab of Hygiene is making relations and agreements with 
our biotech industry across Wisconsin such that if there is a 
huge demand for capacity, we can bring the scientists from the 
private sector into our public sector labs to help us with 
these most difficult--and I just want to reinforce the concept. 
States should have the ability to form partnerships, both 
public and private, to protect. Because our public labs, such 
as the Milwaukee Lab, the VA Hospital and our State Lab of 
Hygiene are just the first line, but we need to do exactly what 
you have said, which is have the ability to expand that network 
so we can pull all the resources of Wisconsin to deal with 
those issues.
    Mr. Horn. Thank you. Do the gentlemen from Wisconsin want a 
few questions here?
    Mr. Petri. Yes, I was hoping Mr. Chapin can stay around for 
a few minutes and might be able to give some advice on what we 
do about the wasting disease and the Federal Government's 
inability to have adequate capacity to monitor that. Maybe we 
can help them somehow with some ideas.
    But I wonder if you would comment a little bit about the 
Federal effort to deal with this problem by creating a new 
Department of Homeland Security, which is a departure from what 
you have done at the State level in terms of trying to improve 
coordination and focusing resources, but not creating an 
additional bureaucracy. I suppose there is no agency, when you 
stop and think about it, that does not have some security and 
health aspect to it in a sense. So where you go and when you 
stop and how it all fits in and whether it will be a diversion 
of whether it will be an addition, I just wonder if you could 
comment on that.
    Mr. Chapin. I think speculating at Federal level is beyond 
my canon authority, but let me use an analogy from what Mr. 
Gleason, who is the chair, co-chair of our bioterrorism task 
force, and my boss, who is the co-chair, and let me take the 
word of wisdom you gave to me which is we believe every agency 
in Wisconsin has a role to play and the approach we have taken 
is to say the true issue is incident command and control and 
resource coordination. And so let us have a Governor's Task 
Force on Bioterrorism that brings all the partners together and 
then in a collaborative role of coordination, we can figure out 
how to coordinate this. For example, right now, we have 
multiple Federal agencies all giving multiple State agencies 
separate money with which we all fund local entities. Now that 
could be a recipe for fragmentation. The approach Wisconsin has 
taken is to say let us get all the agencies in one room with 
our local partners such as fire, police, county government, and 
let us figure it out here. Because putting everything in one 
box is a good step if you are in chaos but it does not solve 
all the coordination command and control. So rather than 
commenting on the Federal Government, I would like to point out 
what I think is the wisdom that Mr. Gleason and others have 
brought to this State in terms of saying it is the State's 
responsibility not to spend the money on themselves, but to 
coordinate that so that all the dollars are not fragmented and 
they are functionally spent.
    So I think you might want to look to the model that Mr. 
Gleason has put together for some insights.
    Mr. Petri. Thank you.
    Mr. Horn. Anybody that has listened to all this, and you 
are good soldiers here because I know you have many other 
things to do, but if you had an idea that one provoked for 
another, we would be delighted to have it on the record. So if 
there is--we will just go around the line down there. Mr. 
Gleason, any thoughts that you learned from this that we have 
not got on the record?
    Mr. Gleason. The only point I would make and I think it was 
made by many people is this is clearly an example that has got 
to be--and I think Governor Ridge has said this many times--it 
is a national effort and a national effort does not mean it is 
a Federal effort or a State effort or local, it is all these 
units of government need to come together, we need to be as 
seamless as we possibly can be, and get to that next step and 
that makes our Nation a better prepared Nation.
    Thank you.
    Mr. Horn. Any thoughts over here?
    Mr. Gardner. Right. I would just like to echo what 
everybody else is saying, you know, as far as our risk 
assessment and our preparedness, I think when we do have an 
operational incident like they have had historically across the 
country just recently, we pulled together and we have managed 
them, but we have to continue to work toward being prepared and 
doing as was mentioned as far as getting those resources to the 
appropriate level.
    And I would just like to make a comment that you had asked 
earlier of Mayor Norquist as far as this Fourth of July. I 
would just like to say that everybody should be alert and 
aware. You know, we have raised our level of awareness to where 
we should be able to assist law enforcement and get the 
information to them as quickly as possible, which then would 
help reduce the operational side of our efforts tremendously.
    I also appreciate the opportunity to speak before you here 
today. Thank you.
    Mr. Horn. Any thoughts here? You all testified very well.
    Mr. Buikema. Mr. Chairman, I would just like to echo the 
comments of Mr. Chapin, especially in regard to the need for 
cooperative planning regionally as well as the unified command 
system, mutual aid. Those are themes that are recurring over 
and over again. I think the lessons of September 11th have 
taught us the need for interoperability of communications 
equipment as well as response equipment and the need to make 
sure we have strong relationships with our partners at all 
levels of government.
    Mr. Horn. Yes.
    Dr. Foldy. Mr. Chairman, I think you have heard how in 
Milwaukee, considerable work has been done to work across 
jurisdictions and to work across different programs. And I 
think you will find as you travel around the country that there 
are areas where those two rather thorny problems are being 
addressed in a creative way, and those are going to be the 
communities that develop new tools and new models for emergency 
preparedness and I would like to suggest that some attention be 
paid to fostering innovation at the local level in those 
communities that establish models for the rest of the Nation to 
learn from.
    Mr. Horn. That is a good idea.
    Captain Hartley. Mr. Chairman, if I could elaborate on Mr. 
Chapin's comment. Actually, I would like to see an all risk, 
all hazard incident command structure. From what we have seen 
in previous responses, you are really building a $1 million 
organization overnight and that is tough to do in the best of 
situations. Getting the players together beforehand in a non-
threatening situation, discuss issues, sort them out, without 
all the pressures of a response, works wonders, from our 
perspective.
    Mr. Horn. Well, thank you. I think we should say the 
obvious, that I do not know one person in Congress that is not 
a fan of the Coast Guard. So you have got a good--right here is 
one of the key people, Mr. Petri, and I just go along and say 
what a great bunch. So thank you.
    Ms. Hecker, closing for the General Accounting Office?
    Ms. Hecker. There were indeed so many words of wisdom and 
insights and I really credit you for creating these kind of 
forums that really create the dynamics that lead to this 
excellent dialog.
    Mr. Petri's point I thought about incentives and the 
Mayor's point about sustainability, I think are pervasive 
issues that whatever the strategies are, we need to structure 
Federal programs and assistance in ways that really build 
sustainable capacity. I think there was a lot of discussion 
about the scarcity of resources, even though there is new money 
and there is a lot of new money from the Federal level being 
targeted at these problems, it still needs to be targeted 
effectively--the flexibility needs to be there and the 
performance focus, and I think we heard a lot about that.
    Finally, I think the issue of the dual use, the reality 
that in fact, as I think many have recognized, so many aspects 
of every level of government are related to securing the 
homeland and I think we need to be careful. I think as Mr. 
Chapin said, GAO has already testified that the proposal for 
the Department of Homeland Security increases fragmentation of 
bioterrorism approaches and we need to be very careful about 
the attempt to bring everything that is related to homeland 
security together and then perhaps end up making things worse 
rather than better.
    But again, I commend you and this forum for so many 
excellent issues.
    Mr. Horn. Well, thank you very much.
    Let me thank those who worked on this particular Milwaukee, 
Wisconsin hearing. J. Russell George is our staff director and 
chief counsel, at the table over there. And Bonnie Heald is to 
my left, your the, she is the deputy staff director and spent 
as lot of her energy with this particular hearing. And then 
Chris Barkley is here somewhere--there we are, right at the 
table, he is our majority clerk. And do we have any of the 
interns here? Well, they did a lot of work at home then--
Michael Sazonov, Sterling Bentley, Joe DiSilvio. And then we 
have Mr. Petri's office, which has been just marvelous in 
helping us through a lot of these things. One is the chief of 
staff, Debbie Gebhardt is the chief of staff in Washington for 
Mr. Petri, and in the District in Wisconsin is Sue Kirkman. And 
the one that is often the hardest working person and that is 
our court reporter and that is Bill Warren. Bill, we thank you 
for coming. He goes with us almost around the Nation, we have a 
very good court reporter.
    With that, we thank everybody in Wisconsin and Milwaukee 
and we appreciate that and we will put that into a report to 
the Congress. Thank you.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]


</pre></body></html>
